Defense Hotline Review      September 28, 2007

          Reimbursement of Settlement
           Costs at Defense Contract
         Management Agency Melbourne


            Report No. D-2007-6-010
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Assistant Inspector
  General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703)
  604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or
  fax (703) 604-9808. Ideas and requests can also be mailed to:


                                         OAIG-APO
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 1015)
                                 Arlington, VA 22202-4704




Acronyms

DCAA          Defense Contract Audit Agency
DCMA          Defense Contract Management Agency
FAR           Federal Acquisition Regulation
IG            Inspector General
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704




                                                                            September 28, 2007

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               COMMANDER, DEFENSE CONTRACT MANAGEMENT
                 AGENCY MELBOURNE, FLORIDA

SUBJECT: Report on Hotline Allegation Regarding the Reimbursement of Settlement Costs at
         Defense Contract Management Agency Melbourne (Report No. D-2007-6-010)


       Weare providing this final report for review and comment. We performed this review
based on a Defense Hotline complaint.

         DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Although we received initial management comments on a draft of this report from Defense
Contract Management Agency on July 5, 2007, Defense Contract Management Agency stated
that it was revising the management comments. As of September 28, 2007, we have not received
the revised management comments. We request that management provide comments to the final
report that conform to the requirements of DoD Directive 7650.3. We should receive the
management comments by November 28,2007.

        If possible, please send management comments in electronic format (Adobe Acrobat file
only) to the e-mail addresses cited in the last paragraph ofthis memorandum. Copies of the
management comments must contain the actual signature of the authorizing official. We cannot
accept the / Signed / symbol in place of the actual signature. Matters considered by management
to be exempt from public release should be clearly marked for Inspector General consideration.

        Management comments should indicate concurrence or nonconcurrence with each
finding and recommendation. Comments should describe actions taken or planned in response to
agreed-upon recommendations and provide anticipated dates for completing the actions. State
specific reasons for any nonconcurrence and propose alternative actions, if appropriate.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Meredith Long-Morin at (703) 604-8739 (DSN 664-8739), meredith.morin@dodig.mil. See
Appendix B for the report distribution.

                                         ~c_~
                                           - ~~y~. Berry
                                             Acting Assistant Inspector General
                                              for Audit Policy and Oversight
Table of Contents
Results in Brief                                                          i

Introduction                                                             1

   Objective                                                             1
   Background                                                            1

Findings
   A. Hotline Allegation: Reimbursement of Settlement Costs               2
         Criteria on Allowability of Cost Related to Legal Settlements    2
         Legal and Audit Opinions                                         3
         Contracting Officer’s Determination                              4
         Advance Agreement                                                5
         Recommendation A                                                 6
         Management Comments Required                                     6

   B. Recouping Unallowable Executive Compensation Costs                  6
         Recommendation B                                                 7
         Management Comments Required                                     7

   C. Accurately Reporting Questioned Costs                               7
         Recommendation C                                                 8
         Management Comments Required                                     8

Appendixes
   A. Scope and Methodology                                               9
   B. Report Distribution                                                10
                       Hotline Allegation Regarding the
                    Reimbursement of Settlement Costs at
                       Defense Contract Management
                              Agency Melbourne

       Results In Brief                             What We Recommended
What We Did                                         DCMA Melbourne needs to recoup the
                                                    unallowable settlement and executive
We reviewed a DoD Hotline complaint                 compensation costs, including applicable
alleging that a contracting officer                 penalties and interest.       DCMA should
reimbursed a Government contractor                  implement procedures for preparing advance
$880,000 in unallowable settlement costs            agreements and resolving differences of
associated with an alleged false claim.             opinion between a contracting officer and a
                                                    DCMA attorney. The Commander, DCMA
We also reviewed the contracting officer’s          Melbourne should emphasize accurate
actions taken on a May 23, 2002, Defense            reporting of contract audit report data.
Contract Audit Agency (DCAA) audit report
for compliance with DoD Directive 7640.2,
“Policy for Follow-up on Contract Audit             Management Comments
Reports.”
                                                    Although we received initial management
                                                    comments from DCMA on July 5, 2007
What We Found                                       based on an April 10, 2007 draft of this
                                                    report, DCMA stated that it was revising the
We substantiated the allegation that the            management        comments.         As    of
contracting officer reimbursed the contractor       September 28, 2007, we have not received
$880,000 in unallowable legal settlement            the revised management comments.
costs.      The contracting officer also            Therefore, we issued this final report
reimbursed $70,000 in other unallowable             without management comments and request
costs associated with the settlement and            that DCMA provide management comments
executive compensation costs of $179,000            to the final report by November 28, 2007.
that are expressly unallowable based on the
Federal Acquisition Regulation. Defense
Contract Management Agency (DCMA)
Melbourne inaccurately reported questioned
costs addressed in the May 23, 2002, DCAA
audit report in the DCMA Melbourne
portion of the DoD IG Semiannual Report to                   United States Department of Defense
Congress.                                                        Office of Inspector General
                                                             Project No. D2007-DIP0AI-0037.000
                                                                  Report No. D-2007-6-010
                                                                     September 28, 2007




                                                i
                             Introduction
Objectives
     We conducted this review to determine the validity of the allegations received by the
     DoD Hotline. We also reviewed the contracting officer’s actions taken on DCAA
     Audit Report No. 1301-2000Q10100002, May 23, 2002, to determine whether they
     complied with DoD Directive 7640.2. See Appendix A for a discussion of our scope
     and methodology and for prior coverage.


Background
     Defense Contract Management Agency. DCMA is the DoD Component that
     works directly with Defense suppliers to help ensure that DoD, Federal, and allied
     government supplies and services are delivered on time at projected cost and meet
     performance requirements. DCMA, acting through its 50 field offices, resolves and
     completes the disposition of most contract audit reports for the Army, Navy,
     Air Force, and Defense Logistics Agency.

     False Claims Act. The False Claims Act, section 3729, title 31, United States Code
     (31 U.S.C. 3729 et seq.) permits U.S. citizens to file actions against Government
     contractors who knowingly present a false claim to the Government for payment.
     The False Claims Act allows the citizen to receive a portion of amounts due to the
     Government resulting from such actions or settlements.

     Settlements Related to Alleged False Claims. Two employees of a Government
     contractor filed an action on behalf of the United States in accordance with the False
     Claims Act. As depicted below, the contractor entered into two settlements related to
     the false-claim allegations.

                       False-claim allegations brought by
                      employees on behalf of United States




          March 2000 settlement                 October 2000 settlement
              of $750,000                       of $950,000 (subject of
                                                    Hotline referral)

     In March 2000, the contractor paid the United States $750,000 to settle the false claim
     allegations. The employees received a portion of the settlement in accordance with
     the False Claims Act. In October 2000, the contractor paid the employees $950,000


                                          1
     to settle their personal injury claims in reporting the false claim allegation. The
     $950,000 settlement costs included $880,000 to settle the personal injury claims and
     $70,000 in associated costs.

     Defense Contract Audit Agency Audit Report. DCAA provides audit and
     financial advisory services to all DoD Components, including DCMA. In Audit
     Report No. 1301-2000Q10100002, May 23, 2002, DCAA questioned the $950,000
     settlement costs as unallowable on Government contracts based on Federal
     Acquisition Regulation (FAR) 31.205-47(b)(3). DCAA also questioned executive
     compensation costs of $179,370 because they exceeded the compensation limits
     specified by FAR 31.205-6(p)(1).


                                 Findings
A. Hotline Allegation: Reimbursement of Settlement
   Costs
     We substantiated the DoD Hotline allegation that a contracting officer reimbursed a
     Government contractor $880,000 in unallowable costs associated with settlement of a
     false claim allegation. In total, the contracting officer reimbursed $950,000 in
     unallowable costs, including $880,000 in settlement costs and $70,000 in associated
     expenses. According to FAR 31.205-47(c)(1), settlement costs are unallowable
     unless the settlement agreement specifically indicates that they are allowable. Both a
     DCMA fraud attorney and DCAA concluded that the settlement costs were
     unallowable. In light of that conclusion, the contract file did not contain sufficient
     rationale for the contracting officer to reimburse the costs. The advance agreement,
     which provisionally accepted the settlement costs, does not comply with portions of
     FAR Subparts 31.1 and 42.7. The contracting officer should require the contractor to
     pay back the settlement costs plus penalties and interest.

     Criteria on Allowability of Costs Related to Legal Settlements. FAR 31.205-47
     provides criteria for determining the allowability of costs associated with legal
     proceedings. Regarding disputes filed under the False Claims Act, FAR 31.205-47(b)
     states:

                The costs incurred with any proceeding….brought by a third
                party in the name of the United States under the False Claims
                Act, 31 U.S.C. 3730, are unallowable if the result is-

        (b)(1) In a criminal proceeding, a conviction;
        (b)(2) In a civil or administrative proceeding, either a finding of
               contractor liability where the proceeding involves an allegation
               of fraud or similar misconduct or imposition of a monetary



                                          2
          penalty where the proceeding does not involve an allegation of
          fraud or similar misconduct;
   (b)(3) A final decision by an appropriate official of an agency to-
          (i) Debar or suspend the contractor;
          (ii) Rescind or void a contract; or
          (iii) Terminate a contract for default by reason of a violation or
          failure to comply with a law or regulation.
   (b)(4) Disposition of the matter by consent or compromise if the
          proceeding could have led to any of the outcomes listed in
          paragraphs (b)(1) through (3) of this section (but see
          paragraphs (c)….of this subsection) (emphasis added)
   (b)(5) Not covered by paragraphs (b)(1) through (4) of this subsection,
          but where the underlying alleged contractor misconduct was the
          same as that which led to a different proceeding whose costs are
          unallowable by reasons of paragraphs (b)(1) through (4) of this
          subsection.

As reflected in paragraph (b)(4), the costs associated with the disposition
by consent or compromise (settlement) are unallowable if the proceeding
could have led to any of the outcomes in paragraphs (b)(1) through (b)(3),
subject to the two exceptions provided in FAR 31.205-47(c). FAR
31.205-47(c) states:

   (c)(1) To the extent they are not otherwise unallowable, costs incurred
          in the connection with any proceeding under paragraph (b) of
          this subsection commenced by the United States (emphasis
          added) that is resolved by consent or compromise pursuant to an
          agreement entered into between the contractor and the United
          States, and which are unallowable solely because the paragraph
          (b) of this subsection, may be allowable to the extent specifically
          provided in such agreement.
   (c)(2) In the event of a settlement of any proceeding brought by a third
          party under the False Claims Act in which the United States did
          not intervene, reasonable costs incurred by the contractor in
          connection with such a proceeding, that are not otherwise
          unallowable by regulation or by separate agreement with the
          United States, may be allowed if the contracting officer, in
          consultation with his or her legal advisor, determines that there
          was very little likelihood that the third party would have been
          successful on the merits.

Since the United States intervened in the alleged false claims, only paragraph (c)(1)
above applies to the $880,000 in settlement costs. Accordingly, the settlement costs
are unallowable because the underlying settlement agreement does not specifically
provide that any of the settlement costs are allowable on Government contracts.

Legal and Audit Opinions. The contracting officer received written opinions on the
allowability of the settlement costs from both a DCMA fraud attorney and DCAA. In
a written communication March 5, 2002, the DCMA fraud attorney concluded that


                                       3
the $880,000 settlement costs were unallowable based on an analysis of the
applicable provisions in FAR 31.205-47. The attorney recommended the application
of penalties in accordance with FAR 42.709, but did not recommend that the alleged
false claim be referred for civil fraud. In Audit Report No. 1301-2000Q10100002,
May 23, 2002, DCAA also concluded that the $880,000 settlement costs were
unallowable and subject to penalties. DCAA questioned an additional $70,000 in
costs that were incurred in connection with the settlement.

Contracting Officer’s Determination. The DCMA contracting officer, in a
March 5, 2004 Memorandum for Record, disagreed with the DCMA fraud attorney
and DCAA and concluded that the settlement costs were allowable on Government
contracts. Where disagreement with an audit report involves an interpretation of law
or regulation, Office of Management and Budget (OMB) Circular A-50 requires the
contracting officer to document the legal basis for decisions not agreeing with audit
recommendations.

In the Memorandum for Record, the contracting officer cited two primary reasons for
allowing the settlement costs. First, the contracting officer determined that the
October 2000 settlement was separate and distinct from the March 2000 settlement in
which the United States intervened. Therefore, the contracting officer concluded that
the criteria for allowability of the settlement costs should be based on FAR 31.205-
47(c)(2), which allows settlement costs of a legal proceeding when the United States
does not intervene and the proceeding lacks merit. However, the Memorandum for
Record provides no legal rationale to support the contracting officer’s determination.
In contrast, the DCMA fraud attorney provided relevant court case precedence in
support of his opinion that the October 2000 settlement directly relates to the
March 2000 settlement in which the United States intervened. We also contacted the
Department of Justice attorney who represented the United States in the March 2000
settlement who agreed that the two settlements are directly related because they
involve damages resulting from the same alleged false claims.

Second, the contracting officer determined there was little likelihood that the legal
proceeding would have been successful on the merits. The contracting officer
believed that the decision of the United States not to intervene in the proceeding
resulting in the October 2000 settlement was evidence that the allegations lacked
merit. However, the United States did not intervene in the October 2000 settlement
because it involved personal injury claims in which the Government had no interest,
not because the proceeding lacked merit. We agree with the DCMA fraud attorney
and the Department of Justice attorney that both settlements resulted from the same
false claim allegations.

DCMA lacks a written policy for resolving or elevating disagreements between a
contracting officer and a DCMA attorney. Paragraph 4.2 of DoD Directive 7050.5,
“Coordination of Remedies for Fraud and Corruption Related to Procurement
Activities,” requires DoD Components to review and implement the appropriate
actions that are necessary to recover funds lost through fraud or corruption. Because


                                     4
             the settlement costs stemmed from the alleged false claims, the contracting officer
             should have been required to follow specific instructions for resolving the
             disagreement with the DCMA fraud attorney before rendering a determination that
             was contrary to his expert advice.

             Advance Agreement. In March 2004, the DCMA contracting officer entered into
             an agreement with the contractor to provisionally authorize reimbursement of the
             $880,000 settlement costs. The agreement provides that the contractor shall pay back
             the settlement costs if the Government later determines that the costs are unallowable.
             The agreement does not comply with portions of FAR Subparts 31.1 and 42.7.
             FAR 31.109(b) states, “Advance agreements may be negotiated either before or
             during a contract but should be negotiated before the incurrence of the costs
             involved.” The advance agreement was executed approximately 4 years after the
             settlement costs were incurred.

             Further, the agreement does not comply with FAR 31.109(c), which states “The
             contracting officer is not authorized . . . to agree to a treatment of costs inconsistent
             with this part.” Because the settlement costs are unallowable under FAR 31.205-47,
             the contracting officer’s use of an advance agreement to render the settlement costs
             allowable was not appropriate.

             The agreement also violates FAR 42.709, which requires that contracting officers
             assess penalties when a contractor includes expressly unallowable costs in an incurred
             cost proposal submitted to the Government. The advance agreement waives penalties
             on the settlement costs even if the Government later determines the costs to be
             unallowable. According to FAR 42.709-5, a contracting officer shall waive penalties
             if any one of the following situations exists:

             •   The contractor withdraws the incurred cost proposal ∗ before the Government
                 formally initiates an audit and submits a new proposal.

             •   The amount of the unallowable costs subject to penalty is $10,000 or less.

             •   The contractor demonstrates that appropriate policies and controls are in place to
                 preclude unallowable costs subject to penalties from being included in indirect
                 cost proposals, and the unallowable costs subject to penalties were inadvertently
                 incorporated in the proposal.

             None of these situations apply in the case of the settlement costs. DCMA should
             have guidelines for preparing advance agreements which help to ensure that the
             agreement complies with the FAR.

∗
 An incurred cost proposal is a contractor’s claim for direct and indirect costs charged to Government contracts.
DCAA audits the contractor’s incurred cost proposal to determine that the costs are reasonable, allocable, and
allowable as prescribed by the Federal Acquisition Regulation, Defense Federal Acquisition Regulation Supplement,
and contract provisions.


                                                       5
Recommendation A
       A.1   .   We recommend that the Director, Defense Contract Management Agency:

               a. Implement procedures for resolving differences of opinion between a
contracting officer and a Defense Contract Management Agency attorney before the contracting
officer makes a final determination.

              b. Issue guidelines for preparing advance agreements which help to ensure
compliance with applicable Federal Acquisition Regulation requirements.

      A.2. We recommend that the Commander, Defense Contract Management Agency
Melbourne direct the contracting officer to:

               a. Recoup the unallowable settlement costs of $950,000, including applicable
penalties and interest.

                 b. Provide documentation confirming that Recommendation A.2.a has been
implemented.

Management Comments Required
        On July 5, 2007, the Defense Contract Management Agency provided initial comments
on a draft of this report. However, the Defense Contract Management Agency stated that it was
revising the management comments. As of September 28, 2007, we have not received the
revised management comments. Therefore, we request that the Commander, Defense Contract
Management Agency provide comments on the final report.



B. Recouping Unallowable Executive
   Compensation Costs
             The contracting officer reimbursed the contractor $179,370 of expressly unallowable
             executive compensation costs, although the costs exceeded the compensation limits
             specified in Federal Acquisition Regulation 31.205-6(p)(1), “Compensation for
             Personal Services.” The contracting officer also did not assess the penalties and
             interest that Federal Acquisition Regulation 42.709 requires when a contractor
             includes expressly unallowable costs in its incurred cost proposal. DCAA questioned
             these excess compensation costs and recommended the assessment of penalties in




                                                6
          Audit Report No. 1301-2000Q10100002. The contracting officer reimbursed these
          costs even though the contractor had agreed with the DCAA audit position.

Recommendation B
        We recommend that the Commander, Defense Contract Management Agency Melbourne
direct the contracting officer to:

       B.1. Recoup the unallowable executive compensation costs of $179,370, including
applicable penalties and interest.

      B.2. Provide documentation confirming that Recommendation B.1 has been
implemented.

Management Comments Required
        On July 5, 2007, the Defense Contract Management Agency provided initial comments
on a draft of this report. However, the Defense Contract Management Agency stated that it was
revising the management comments. As of September 28, 2007, we have not received the
revised management comments. Therefore, we request that the Commander, Defense Contract
Management Agency provide comments on the final report.



C. Accurately Reporting Questioned Costs
          The contracting officer did not accurately report the questioned costs in the DCMA
          portion of the Semiannual Report to Congress for Audit Report
          No. 1301-2000Q10100002. Although the DCMA Melbourne portion of the DoD
          Inspector General’s Semiannual Report to Congress for the period ending March 31,
          2004, reported questioned costs of $880,000, the actual questioned costs were
          $1,129,370. DoD Directive 7640.2, “Policy for Follow-up on Contract Audit
          Reports,” dated February 12, 1988, prescribes DoD policy and procedures for the
          disposition of reportable contract audit reports. Paragraph 5.2.5 of DoD
          Directive 7640.2 requires DoD Components to maintain up-to-date records on all
          reportable contract audit reports. Without accurate information on questioned costs,
          DCMA management lacks a reliable mechanism for ensuring that all questioned costs
          are timely and effectively resolved and dispositioned in accordance with
          DoD Directive 7640.2.




                                              7
Recommendation C
        We recommend that the Commander, Defense Contract Management Agency Melbourne
emphasize to contracting officers the importance of accurately reporting contract audit report
data in the Defense Contract Management Agency Melbourne portion of the DoD IG
Semiannual Report to Congress.

Management Comments Required
        On July 5, 2007, the Defense Contract Management Agency provided initial comments
on a draft of this report. However, the Defense Contract Management Agency stated that it was
revising the management comments. As of September 28, 2007, we have not received the
revised management comments. Therefore, we request that the Commander, Defense Contract
Management Agency provide comments on the final report.




                                              8
Appendix A. Scope and Methodology
We evaluated the records maintained by DCMA Melbourne to determine the validity of the
allegation. Specifically, we:

   •   reviewed the applicable regulations, directives, and instructions;

   •   reviewed the outcome of relevant legal cases;

   •   interviewed the contracting officer and others involved in reviewing the settlement costs
       for allowability;

   •   reviewed the DCMA contract files addressing negotiation of the settlement costs, such as
       the advance agreement, settlement agreement, and court pleadings and dismissal
       statements from the legal proceedings; and

   •   interviewed employees of the DCAA Melbourne office involved with Audit Report
       No. 1301-2000Q10100002, May 23, 2002, and reviewed the associated working papers.

We also evaluated contracting officer actions taken in response to DCAA Audit Report
No. 1301-2000Q10100002 for compliance with DoD Directive 7640.2, “Policy for Follow-up on
Contract Audit Reports.”

We performed this review from October 2006 through March 2007.

Use of Computer-Processed Data. DCMA maintains a Web-based eTools system to provide
the status of contract audit reports. However, we did not rely on the accuracy of the computer-
processed data generated by eTools as a basis for our findings and recommendations. Instead,
we traced the information in the eTools system to source documents.

Prior Coverage. During the last 5 years, the Department of Defense Inspector General (IG)
has issued two reports related to contract audit followup actions on incurred costs, such as the
settlement costs addressed in the DoD Hotline.

   •   IG DoD Report No. D-2005-6-003, “Oversight Review of the DCMA Santa Ana’s
         Actions on Incurred Cost Audits,” March 17, 2005

   •   IG DoD Report No. D-2004-6-006, “Oversight Review of the Naval Sea Systems
       Command Contract Audit Follow-up Process,” July 8, 2004




                                                 9
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Department of the Army
Inspector General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
   Policy Quality Assurance Division Chief, Policy and Plans Directorate
   Branch Manager, Melbourne Branch Office
Director, Defense Contract Management Agency
   Commander, Defense Contract Management Agency Melbourne
   Deputy Director, Defense Contract Management Agency Melbourne
   Director, Contract Business Operations
   Director, Independent Assessment, Internal Review Team

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
   Committee on Oversight and Government Reform



                                             10
